                                                                        AUDIT




   U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND SPORT FISH
   RESTORATION PROGRAM GRANTS
   Awarded to the State of California, Department of Fish and Game,
   From July 1, 2009, Through June 30, 2011




Report No.: R-GR-FWS-0004-2012                                        June 2012
                                                                                        June 26, 2012

                                          AUDIT REPORT

Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Suzanna I. Park
               Director of External Audits

Subject:       Audit – U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
               Program Grants Awarded to the State of California, Department of Fish and
               Game, From July 1, 2009, Through June 30, 2011
               Report No. R-GR-FWS-0004-2012

        This report presents the results of our audit of costs claimed by the State of California
(State), Department of Fish and Game (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program. The audit included claims totaling $63.8 million on 68 grants that were
open during State fiscal years that ended June 30, 2010, and June 30, 2011 (see
Appendix 1). The audit also covered the Department’s compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $851,337 due to unsupported in-kind and
ineligible State match. We also found that the Department (1) had not reconciled its land records
with those of FWS; (2) incorrectly reported program income received and expended using
estimated amounts; and (3) did not ensure that its required matching share of grant costs was met
prior to monthly drawdown of grant reimbursements.

      We provided a draft report to FWS for a response. We summarized Department and FWS
Region 8 responses to the recommendations, as well as our comments on the responses after the
recommendations. We list the status of the recommendations in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
September 24, 2012. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation. Please address
your response to:



                          Office of Audits, Inspections, and Evaluations | Reston, VA
                             Director of External Audits
                             U.S. Department of the Interior
                             Office of Inspector General
                             12030 Sunrise Valley Drive, Suite 230
                             Reston, VA 20191

      If you have any questions regarding this report, please contact the audit team leader, Tim
Horsma, or me at 703-487-5345.

cc: Regional Director, Region 8, U.S. Fish and Wildlife Service




                                               2
Table of Contents
Introduction ............................................................................................................. 1
   Background .......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 1
   Prior Audit Coverage ........................................................................................... 2
Results of Audit ...................................................................................................... 3
   Audit Summary.................................................................................................... 3
   Findings and Recommendations .......................................................................... 3
Appendix 1 ............................................................................................................ 11
Appendix 2 ............................................................................................................ 14
Appendix 3 ............................................................................................................ 15
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States to restore, conserve, manage, and enhance their
sport fish and wildlife resources. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. The Acts also require
that hunting and fishing license revenues be used only for the administration of
the State’s fish and game agency. Finally, Federal regulations and FWS guidance
require States to account for any income they earn using grant funds.

Objectives
We conducted this audit to determine if the State of California (State),
Department of Fish and Game (Department)—

       •    claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and the grant
            agreements;
       •    used State hunting and fishing license revenues solely for fish and wildlife
            program activities; and
       •    reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $63.8 million on the 68 grants
open during State fiscal years (SFYs) that ended June 30, 2010, and June 30, 2011
(see Appendix 1). We report only on those conditions that existed during this
audit period. We performed our audit at Department headquarters in Sacramento,
CA, and visited one regional office, two field offices, seven wildlife areas, and a
fish hatchery (see Appendix 2). We performed this audit to supplement—not
replace—the audits required by the Single Audit Act Amendments of 1996 and by
Office of Management and Budget Circular A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                                                      1
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions for testing. We did not project the
results of the tests to the total population of recorded transactions or evaluate the
economy, efficiency, or effectiveness of the Department’s operations.

Prior Audit Coverage
On March 14, 2008, we issued “Audit on the U.S. Fish and Wildlife Service
Federal Assistance Program Grants Awarded to the State of California,
Department of Fish and Game From July 1, 2004, Through June 30, 2006”
(No. R-GR-FWS-0011-2007). We followed up on all recommendations in the
report and found that that the U.S. Department of the Interior, Office of the
Assistant Secretary for Policy, Management and Budget considered all 10
recommendations resolved but not implemented.

We reviewed California’s Single Audit and Comprehensive Annual Financial
Reports for SFY 2010. None of these reports contained any findings that would
directly affect the Program grants.




                                                                                    2
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, several conditions that resulted in the findings
listed below, including questioned costs totaling $851,337.

Questioned Costs. We questioned costs totaling $851,337 because the
Department (1) was unable to provide adequate documentation to support labor
rates and goods claimed as in-kind contributions on aquatic education grants; and
(2) claimed State match on both a Program grant and a U.S. Bureau of
Reclamation (BOR) cooperative agreement.

Unreconciled Real Property Records. The Department had not reconciled its
grant-funded real property records with those of FWS and could not provide an
accurate database of lands purchased with Program funds.

Incorrectly Reported Program Income. The Department incorrectly reported
program income received and expended using budget estimate amounts instead of
actual amounts earned (and expended) as a result of grant activity.

Improper Drawdowns. The Department did not ensure that it met its matching
share of costs prior to monthly drawdowns.

Findings and Recommendations
A. Questioned Cost — $851,337

1. Unsupported In-Kind Contributions — $768,852

Under the Program, States must use “State matching” (non-Federal) funds to
cover at least 25 percent of costs incurred in performing projects under the grants.
Non-cash (“in-kind”) contributions may be used to meet the States’ matching
share of costs, and as with costs claimed for reimbursement, States must support
the value of these contributions. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. The State’s matching
share of costs on its Aquatic Resource Education grants (F-49-AE-23 and F-49-
AE-24) included in-kind contributions consisting of the value of volunteer
instructor hours and donated goods. However, the Department was unable to
provide adequate documentation to support labor rates and goods claimed as
in-kind contributions of $256,284 on the Program grants F-49-AE-23 ($192,787)
and F-49-AE-24 ($63,497).


                                                                                     3
The Code of Federal Regulations (CFR), 2 CFR § 225.55, Appendix A,
subsection C, require that for a cost to be allowable under Federal awards, the cost
must be necessary and reasonable, allocable and authorized, and adequately
documented. In addition, 43 CFR § 12.64(b)(6) requires that third party in-kind
contributions claimed must be verifiable from the records of grantees and sub-
grantees. It further states that, to the extent feasible, volunteer services will be
supported by the same methods that the organization uses to support the allocation
of regular personnel costs.

The Department did not have written policies and procedures to ensure that in-
kind contributions are adequately supported. Because the Department could not
support its matching funds of $256,284 (25 percent), we are questioning the
Federal share (75 percent) on grant F-49-AE 23 ($578,361) and F-49-AE-24
($190,491), for a total of $768,852 Federal share.

Recommendations

We recommend that FWS—

    1. resolves the unsupported questioned costs of $768,852; and

    2. works with the Department to implement policies and procedures that
       ensure in-kind contributions are adequately supported.


Department Response
Department officials concurred with the finding and recommendations.
Department officials stated that a review of the supporting documents for grant F-
49-AE-23 show that sufficient documentation exists to support the Federal share.
With FWS’ concurrence, the Department will apply the same standards to the F-
49-AE-24 grant and expect that there is more than sufficient in-kind contribution
to match the Federal share.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendations;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and


                                                                                  4
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

2. Ineligible State Match — $82,485

Under the Program, States must use “State matching” (non-Federal) funds to
cover at least 25 percent of costs incurred in performing projects under the grants.
The Acts and Federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs
incurred under the grants.

The Department drew down Program funds of $329,940 (75 percent) on grant
F-123-R-4 (Sacramento-San Joaquin Estuary Sport Fish Studies). These costs
were verifiable to the Program grant based on the program cost accounts (PCAs)
assigned in the State’s accounting system. However, the State’s matching costs of
$109,980 (25 percent) claimed on this grant were captured in a PCA assigned to
capture costs, and claimed on a cooperative agreement with BOR.

Federal regulations (2 CFR § 225, Appendix A, subsection C.1) provides basic
guidelines for cost allowability. Specifically, to be allowable under Federal
awards, costs must be necessary and reasonable, allocable, authorized or not
prohibited, and not be included as a cost or used to meet cost sharing or matching
requirements of any other Federal award. In addition, 43 CFR § 12.60(a)(2)
requires that fiscal control and accounting procedures of the State must be
sufficient to permit the tracing of funds to a level of expenditures adequate to
establish that such funds have not been used in violation of the restrictions and
prohibitions of applicable statutes.

The Department did not establish policies and procedures to assign PCAs in the
State’s accounting system, segregating costs between the Program grants and
other Federal awards.

Because the Department was only able to support total costs of $329,940, the
Federal share would be $247,455 (75 percent). We are therefore questioning the
State’s matching share $82,485 (25 percent) that was part of the Federal
drawdown.

 Recommendations

 We recommend that FWS—

    1. resolves the questioned costs of $82,485; and

    2. requires the Department to establish policy and procedures that
       ensure costs are not claimed on multiple Federal awards.


                                                                                   5
Department Response
Department officials concurred with the finding and recommendations.
Department officials stated that they propose to credit back to the FWS $82,485
and will develop policies and procedures to ensure that the State funded activities
used as Federal match for one project are not counted towards another Federal
project.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—
    • specific action(s) taken or planned to address the recommendations;
    • targeted completion dates;
    • titles of officials responsible for implementing the actions taken or
        planned; and
    • verification that FWS headquarters officials reviewed and approved of
        actions taken or planned by the Department.

B. Unreconciled Real Property Records

To help maintain control over the use of land acquired with Program funds, the
Department must ensure its database of real property is accurate and reconciles
with land records maintained by FWS. FWS and the Department agreed that land
reconciliation had not been performed.

The Department could not provide an accurate database of lands purchased with
program funds, nor could it account for the funding or acreage of land purchased
with Program funds.

Federal regulations (50 CFR § 80.18) requires States to be responsible for the
accountability and control of all assets acquired with Program funds to ensure that
they are used for the purpose for which they were acquired throughout their useful
life. Also, 50 CFR § 80.4 extends the same accountability and control
requirements to those assets acquired with license revenues. In addition, the FWS
Director reiterated land management requirements to the Program participants in a
March 29, 2007 letter. The letter requested each State maintain a real property
management system that includes a comprehensive inventory of lands to ensure
that its inventory is accurate and complete.

The Department has not—

   1. developed policies and procedures to ensure that the funding source is
      included in the documentation of all land acquisitions;

                                                                                   6
   2. established complete and accurate lists of all land acquired with the
      Program funds; and
   3. reconciled their land records with FWS’ land records.

As a result, the Department’s land records are not adequate to ensure that lands
acquired with the Program funds are used only for their intended purpose.

Recommendations

We recommend that FWS ensures the Department —

    1. develop policies and procedures to include the funding source on all
       land acquisitions;

    2. maintain an accurate and complete real property management system
       that includes a comprehensive inventory of lands, including those
       acquired with the Program funds; and

    3. reconcile its inventory of land records with FWS’ land records.


Department Response
Department officials concurred with the finding and recommendations.
Department officials stated that they can provide real property data in three
databases. The Department initiated a project to link these databases and will
work with the FWS to complete the real property reconciliation.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—
    • specific action(s) taken or planned to address the recommendations;
    • targeted completion dates;
    • titles of officials responsible for implementing the actions taken or
        planned; and
    • verification that FWS headquarters officials reviewed and approved of
        actions taken or planned by the Department.

C. Incorrectly Reported Program Income

Federal regulations allow grantees to earn income as a result of grant-supported
activities, but they must account for the income in an agreed-upon manner. The
Department estimated it would earn program income of approximately $1.1

                                                                                   7
million on 12 Wildlife Habitat Development and Maintenance (WHDM) grants
during SFYs ended June 30, 2010 and 2011. The amounts were included on its
Applications of Federal Assistance (SF-424s). The sources of program income
were employee housing rentals and user fees charged to external parties for
grazing and agricultural activities. These activities took place on wildlife areas
operated and maintained under the Program grants.

The Department, however, incorrectly reported program income received and
expended using budget estimate amounts instead of actual income earned. As a
result of grant activity, the incorrect amounts were reported on its Federal
Financial Reports (SF-425s) for the 12 WHDM grants (W-76-D-3, W-76-D-4,
W-77-D-3, W-77-D-4, W-78-D-3, W-78-D-4, W-79-D-3, W-79-D-4, W-80-D-3,
W-80-D-4, W-81-D-3, and W-81-D-4).

Federal regulations (43 CFR § 12.65(b)) defines program income as gross income
a grantee receives that is “directly generated by a grant supported activity, or
earned only as a result of the grant agreement during the grant period.” In
addition, 43 CFR § 12.60(a)(2) requires States to be able to track, through its
financial management system, funds at a level that is adequate to demonstrate
compliance with grant provisions.

According to Department officials, the State’s accounting system did not permit
the identification of program income by Wildlife Management Area. This
occurred because the Department did not establish project accounting codes that
track program income by grant activity.

The Department reported estimated amounts and not actual amounts for program
income and related expenditures. The Department may have underreported
program income and related expenses on the 12 grants due to the inadequate
reporting of revenues and expenses.

 Recommendations

 We recommend that FWS requires the Department—

    1. perform an analysis of program income received (and expended) from
       SFYs ended June 30, 2010 and 2011 on the 12 grants to determine if
       additional program income and expenditures need to be reported, and
       revise grant Federal Financial Reports accordingly; and

    2. establish and implement project accounting codes that track program
       income by grant activities.




                                                                                     8
Department Response
Department officials concurred with the finding and recommendations.
Department officials stated that they performed analyses of program income
received and expended on the 12 grants and drafted procedures to record and
report program income revenues and expenditures.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—
    • specific action(s) taken or planned to address the recommendations;
    • targeted completion dates;
    • titles of officials responsible for implementing the actions taken or
        planned; and
    • verification that FWS headquarters officials reviewed and approved of
        actions taken or planned by the Department.

D. Improper Drawdowns

Under the Program, FWS may reimburse up to 75 percent of grant expenditures,
provided the States first expend their required matching share (25 percent) of
costs. The Department uses PCAs to track expenditures and funding sources in
the State’s accounting system (CALSTARS). Multiple PCAs can be used to fund
grant expenditures. Expenditures recorded in these PCAs were used as a basis for
monthly drawdowns. The State established PCAs for the Federal portion of the
Program grants in the Federal Trust Fund and separate PCAs for the State match.
We found that the Department did not ensure that it met its matching share of
costs prior to monthly drawdowns.

Federal regulations (50 CFR § 80.16) provide that payments shall be made for the
Federal share of allowable costs incurred by the State in accomplishing approved
projects. In addition, 43 CFR § 12.60(a)(2), requires States to account for grant
funds in a manner that permits funds to be traced to level of expenditures that
adequately demonstrates compliance with applicable regulations.

Furthermore, 31 CFR § 205.15(d) states that for programs utilizing mandatory
matching of Federal funds with State funds, a State incurs interest liabilities if it
draws Federal funds in advance or in excess of the required proportion of agreed
upon levels of State contributions. Therefore, the Department would be required
to pay interest to the U.S. Treasury resulting from the advance drawdowns.




                                                                                        9
The Department did not establish adequate policies and procedures to ensure that
it met its matching share of costs prior to monthly drawdowns. By not meeting its
required State match prior to drawdowns, the Department may have improperly
drawn down the Program grant funds in advance, resulting in potential interest
liability.

Recommendation

 We recommend that FWS requires the Department to revise its policies and
 procedures to ensure that sufficient State match is identified prior to
 drawdowns.


Department Response
Department officials concurred with the finding and recommendation.
Department officials stated that they drafted revised policies and procedures on
the drawdown of Federal funds. The procedures specify the steps to ensure that
sufficient State match is verified prior to drawdowns.

FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.




                                                                                   10
Appendix 1
                        State of California
                  Department of Fish and Game
             Financial Summary of Review Coverage
               July 1, 2009, Through June 30, 2011


  Grant       Grant        Claimed          Questioned Costs
 Number      Amount         Costs        Ineligible   Unsupported
F-4-D-59     $4,418,360    $2,479,045
F-4-D-60      3,288,329      2,943,485
F-6-C-58        965,124        560,385
F-49-AE-23    3,357,788      2,300,177                  $578,361
F-49-AE-24    3,512,283      3,120,088                   190,491
F-50-R-22     5,256,151      3,996,023
F-50-R-23     5,356,152      4,649,187
F-89-D-13       412,501        348,215
F-89-D-14       175,435        150,132
F-113-B-3       221,866         13,691
F-114-D-7       849,156        840,395
F-119-R-5     3,021,256      2,290,303
F-120-B-2       938,222        547,606
F-122-R-4     4,370,710      2,807,284
F-123-R-4     1,181,818        558,887     $82,485
F-124-T-4       281,218        172,999
F-125-R-4       641,895        325,471
F-126-R-4     2,115,415      1,430,415
F-128-B-1       881,456        826,152
F-129-B-1        32,481
F-129-B-2       216,099
F-130-B-1       597,237        510,828
F-131-D-1     2,219,520      2,219,520


                                                                   11
  Grant       Grant       Claimed         Questioned Costs
 Number      Amount        Costs       Ineligible   Unsupported
F-133-B-1     $372,006      $168,836
F-134-D-1      928,130       639,086
F-135-R-1      230,764       223,233
F-137-R-1     1,297,382      980,466
F-137-R-2     3,367,132    1,130,453
F-139-B-1      279,096
F-140-B-1      962,685
F-141-B-1      869,980
F-142-B-1      688,142
FT-1-1        2,764,576      474,076
W-29-C-63     1,075,204      673,965
W-58-HS-38    1,835,088    1,544,399
W-58-HS-39    5,845,561    1,368,564
W-66-C-3       800,000       746,041
W-67-R-3      1,564,353      764,935
W-68-R-3       647,267       293,533
W-69-R-3      1,146,708      591,925
W-70-R-3       621,387       357,417
W-71-R-3       842,729       355,732
W-72-R-3       961,871       475,328
W-73-R-3       845,120       234,163
W-74-R-3       365,528       101,363
W-75-R-3       262,440       110,768
W-76-D-3      1,153,807      963,992
W-76-D-4      1,479,686    1,401,540
W-77-D-3       241,062       196,489
W-77-D-4       235,631       145,728
W-78-D-3      2,449,873    1,952,427
W-78-D-4      2,490,973    2,536,057
W-79-D-3      1,595,799    1,595,799

                                                              12
 Grant        Grant         Claimed          Questioned Costs
Number       Amount          Costs        Ineligible   Unsupported
W-79-D-4     $1,731,574     $1,797,481
W-80-D-3       2,400,453      1,914,179
W-80-D-4       2,374,679      2,494,910
W-81-D-3       1,732,425      1,353,153
W-81-D-4       1,936,668      1,883,203
W-82-C-1        199,603        122,045
W-83-R-1       1,092,872       469,506
W-84-E-1         68,912         38,591
W-84-E-2        162,200        134,487
W-85-R-1        731,288         26,884
W-86-R-1       1,826,851
W-87-R-1       1,203,001       399,557
W-88-R-1        487,159         47,637
W-89-R-1       1,461,480
W-90-D-1        243,581

Total      $100,184,198    $63,798,736     $82,485       $768,852




                                                                    13
Appendix 2
                  State of California
             Department of Fish and Game
                     Sites Visited


                    Headquarters
                     Sacramento


                    Regional Office
               Northern Region - Redding


                     Field Office
                    Bermuda Dunes
                        Eureka


                    Wildlife Areas
                     Gray Lodge
                  Hollenbeck Canyon
                       Imperial
                   San Felipe Valley
                      San Jacinto
                      Spenceville
                       Tehama


                    Fish Hatchery
                    Mojave River




                                           14
Appendix 3

                             State of California
                        Department of Fish and Game
               Status of Audit Findings and Recommendations

Recommendations               Status               Action Required
A.1.1, A.1.2, A.2.1,    FWS management       Based on the FWS response,
A.2.2, B.1, B.2, B.3,   concurred with the   additional information is
C.1, C.2, and D         recommendations,     needed in the corrective action
                        but additional       plan, as listed in the Findings
                        information is       and Recommendations section
                        needed.              under OIG Comments. We will
                                             refer the recommendations not
                                             resolved and/or implemented
                                             at the end of 90 days (after
                                             September 24, 2012) to the
                                             Assistant Secretary for Policy,
                                             Management and Budget for
                                             resolution and/or tracking of
                                             implementation.




                                                                          15
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
